                                              xunrr ().Ir.~IIlE
      ~},·8·.
 ·...1·
 U         .•.... , •.• ··E'R·
            ~·I·•N·xT     ;.; -: ·.·N
                                   .. XA
                                       I\.. ~I·~I·     .NT AL'·. r-·("R.·••t\;...'"
                                             . ...0'.'·..t'\...             "'··.n.···.E.. C
                                                                                           ••..,.;.O·~tl·~i1·I.CS'~.I·
                                                                                                      J".11']. 1<."'k. .  '. •. ·t·,. S.~
                                                                                                                       .(·)···N       j"..



~~lNLt\·N(:II\L1VIi\NJ\(;·E:t\IEN~r.SYSfr·ElVl(~ON'(r:'R,OIJS



                                                  /.\udit·Report-
                                                 ()Ift-r\R-62»+03
INSPECTOR GENERAL




                                                               IG-AA-OIO

UNITED STATES INTERNATIONAL TRADE COMMISSION

                          WASHINGTON, D.C. 20436
  July 24, 2003

  MEMORANDUM

  TO:    THE COMMISSION

  We hereby submit Audit Report No. OIG-AR-02-03, Audit ofthe U.S.
  International Trade Commission's Financial Management System Controls.
  We audited the Commission's financial data for reliability, accuracy,
  completeness, and timeliness to assist the Commission meet a new
  requirement to prepare financial statements.

  Generally, the Commission's accounting records reasonably and fairly
  represented financial transactions, and internal controls were in place.
  However, the Commission should strengthen certain internal control areas
  related to property, cash, payroll, and accounts receivable. Also, in the event
  the Office of Management and Budget requires the Commission to submit
  fiscal year 2004 unaudited financial statements quarterly, we suggest the
  Commission update its procedures to ensure timely financial information and
  reporting.

  The Commission concurred with our findings and recommendations. Of the
  four recommendations made, management responded that three have been
  fully implemented and actions on the remaining recommendation should be
  completed by October 30, 2003.

  We appreciate the courtesies and cooperation provided to our auditors during
  this audit.



                                                             . Kenneth F. Clarke
                                                               Inspector General

  CC: Cynthia Johnson
      Office Directors
      O'Connor & Drew, P.C.
Audit of the U.S. International Trade Commission's                           OIG-AR-02-03
Financial Management System Controls

TABLE OF CONTENTS

I.     SUMMARY OF RESULTS                                                                      1

II.    BACKGROUND                                                                              1

III.   OBJECTIVES                                                                             2

IV.    METHODOLOGY AND SCOPE                                                                  3

V.     DETAILS OF RESULTS                                                                     4
       A.      POLICIES AND PROCEDURES WERE EFFECTIVE                                         4

       B.      OVERSIGHT OF PROPERTY SHOULD BE STRENGTHENED                                   6

               RECOMMENDATION 1                                                               9
               MANAGEMENT RESPONSE                                                            9
               OIG COMMENT                                                                    10

       C.      CONTROLS OVER PAYROLL RECONCILIATION, ACCOUNTS RECEIVABLE AND
               CASH SHOULD BE IMPROVED                                     10

               RECOMMENDATION 2                                                               11
               MANAGEMENT RESPONSE                                                            11
               OIG COMMENT                                                                    11

               RECOMMENDATION 3                                                               12
               MANAGEMENT RESPONSE                                                            12
               OIG COMMENT                                                                    12

               RECOMMENDATION 4                                                               12
               MANAGEMENT RESPONSE                                                            12
               OIG COMMENT                                                                    12

        D.     POLICIES AND PROCEDURES COULD BE REVISED TO FACILITATE TIMELY
               FINANCIAL INFORMAnON AND REpORTING                                             13

               SUGGESTION                                                                     13

APPENDIX A - MANAGEMENT RESPONSE                                                              14




                                                     Office ofInspector General
                                                         us. International Trade Commission
Audit of the U.S. International Trade Commission's                               OIG-AR-02-03
Financial Management System Controls


I. SUMMARY OF RESULTS

To assist the U. S. International Trade Commission (Commission) meet a new
requirement to prepare financial statements, the Office of Inspector General (OIG)
audited the Commission's financial data for reliability, accuracy, completeness, and
timeliness.

Generally, the Commission's accounting records reasonably and fairly represented
financial transactions, and internal controls were in place. We found no instances of
fraud. However, the Commission should strengthen certain internal control areas related
to property, cash, payroll, and accounts receivable. Also, in the event the Office of
Management and Budget (OMB) requires the Commission to submit fiscal year (FY)
2004 unaudited financial statements quarterly, we suggest the Commission update its
procedures to ensure timely financial information and reporting.

The Commission agreed with the findings and recommendations, and management's
complete response is presented as Appendix A of this report.


II. BACKGROUND

With the enactment of the Accountability ofTax Dollars Act of2002 (Public Law 107-
289, November 7, 2002), the Commission is now required annually to submit to Congress
and OMB audited financial statements. The financial statements must be prepared in
accordance with the policies prescribed in OMB Bulletin 01-09, Form and Content of
Agency Financial Statements.

The annual financial statements should consist ofthe following:

    1. Management discussion and analysis
    2. Basic statements and related notes, such as the following:

            ~   Balance Sheet
            ~   Statement of Net Cost
            ~   Statement of Changes in Net Position
            ~   Statement of Budgetary Resources
            ~   Statement of Financing
            ~   Statement of Custodial Activity, when applicable

    3. Required supplementary stewardship information
    4. Required supplementary information




                                                       Office ofInspector General
                                                             u.s. International Trade Commission
                                              1
Audit of the U.S. International Trade Commission's                                   OIG-AR-02-03
Financial Management System Controls

Commission Directive 2102.0, Financial Management System Policies, illustrates the
Commission's policies and procedures regarding the financial management system. The
Directive assigns general responsibilities for maintaining the financial management
system to the following individuals:

              >-   The Chairman is responsible for ensuring that the financial management
                   system is properly established and maintained.

              ~    The Director, Office of Administration, is responsible for coordinating the
                   overall agency-wide effort of reviewing, improving, and reporting on the
                   financial management system.

              ~    The Director, Office of Administration, and subordinates, are responsible
                   for their assigned subsystems. This responsibility includes ensuring that
                   the system is established, maintained, reviewed, improved and reported
                   upon in accordance with OMB Circular A-127, Management
                   Accountability and Control.

              ~    The Director, Office of Finance, is responsible for providing technical
                   assistance and advice for reviewing and improving the Commission's
                   financial management system; performing reviews of the financial
                   management system; and advising the Director, Office of Administration,
                   whether the Commission's financial management system is in accordance
                   with OMB guidelines.


III.       OBJECTIVES

The overall objective of the audit was to evaluate the Commission's financial data for
reliability, accuracy, completeness, and timeliness. Specifically, we determined whether
the Commission:

       ~   Established and communicated all procedures and policies governing transactions
           related to cash, accounts receivable, property, payroll, and disbursements.

       ~   Implemented sufficient internal controls to monitor and adequately control cash,
           accounts receivable, property, payroll, and disbursement transactions.




                                                           Office ofInspector General
                                                                 u.s. International Trade Commission
                                                 2
Audit of the U.S. International Trade Commission's                                       OIG-AR-02-03
Financial Management System Controls


IV.     METHODOLOGY AND SCOPE

We engaged O'Connor & Drew, P.C. to assist in conducting this audit that included
financial transactions related to FY 2003, from October 1,2002 through January 24,
2003. Fieldwork took place between January 2003 and March 2003.

We reviewed applicable policies and procedures and interviewed Commission employees
to identify and evaluate the Commission's: (a) implementation of recommendations
made in our prior financial statement audit titled Audit ofthe USITC Financial
Statements ofFiscal Years 1998 and 1999, March 24,2000 (OIG-AR-03-00)1 and (b)
controls over financial data. Specifically, we evaluated:

      ~ Internal control policies and procedures over disbursements. We tested 40 2
        transactions for:
            • Proper authorization for the disbursement;
            • Compliance with purchase thresholds;
            • Allowable purchases under the Commission's guidelines;
            • Documentation for transaction;
            • Receipt of the merchandise; and
            • Timely payment of the purchase.

      ~ Internal control policies and procedures over payroll, We examined 40 3 payroll
        transactions to determine whether:
            • All required personnel forms were completed;
            • Time and attendance information for selected pay periods agreed with
                source documents;
            • Payroll for selected pay periods was properly authorized;
            • Voluntary withholdings were properly administered; and
            • Employees existed.




1 The Commission voluntarily prepared these fmancial statements, and the OIG audited them. No
subsequent financial statements were prepared or audited because neither the Commission nor the Inspector
General considered them to be cost effective.

2We randomly selected a sample of 40 disbursements from the Commission's Detail Accrued Expenditure
Transactions Report, which had a population of372 disbursements, by using the U.S. Army Statistical
Sampling System.

3 We randomly selected a sample of 40 employees from the Department ofInterior Payroll Journal by
using the U.S. Army Statistical Sampling System. The total population was 373 employees. We then
selected four out of the nine pay periods in FY 2003. For each of the four selected pay periods, we
reviewed 25 percent of our sample of 40 employees.



                                                                Office ofInspector General
                                                                     u.s. International Trade Commission
                                                    3
Audit of the U.S. International Trade Conunission's                                        OIG-AR-02-03
Financial Management System Controls


     ;;.. Internal control policies and procedures regarding accountable property items.
          We randomly selected 404 items, and determined whether:
              •    Each item was physically present;
              •    Property was bar coded;
              •    The Form 110 Property Action Form was completed, if applicable; and
              •    The Cost Center Manager performed the annual inventory.

     ;;.. Policies and procedures over capital property. We performed a physical inventory
          of all nine fixed assets.

     ;;.. Policies and procedures for capitalizing leased property. We obtained and
          reviewed the agreements for all three leased items, and determined whether the
          agreements met the capital lease criteria disclosed in the Statement of Federal
          Financial Accounting Standard (SFFAS) Number 6, Accountingfor Property,
          Plant and Equipment.

     ;;.. Policies and procedures for capitalizing a major automated system, the new
          Electronic Document Information System (EDIS). We reviewed the applicable
          documentation and interviewed Commission personnel.

     ;;.. Internal control policies and procedures over cash reporting and accounts
          receivable. We reviewed all cash related reconciliations and deposits for FY
          2003, and interviewed several employees.

We conducted this audit in accordance with Government Auditing Standards pertaining to
Performance Audits, 1994 Revision, as amended, promulgated by the Comptroller
General of the United States.


v.      DETAILS OF RESULTS


        A. Policies and Procedures Were Effective


Overall, financial transactions were reasonably and fairly stated, and internal control
systems over cash, accounts receivable, property, and disbursements were effective.

The Commission took action to correct weaknesses identified from the audit of the
Financial Statements for FY 1998 and FY 1999. Specifically, the Commission:

4 We randomly selected a sample of 40 accountable property items from the Accountable Office Master
Property Listing Report, which had a population of984 accountable property items, by using the U.S. Army
Statistical Sampling System.


                                                               Office ofInspector General
                                                                      u.s. International Trade Commission
                                                   4
Audit of the U.S. International Trade Commission's                                 OIG-AR-02-03
Financial Management System Controls



            ~   Strengthened the internal controls over recording accounts receivable
                related to civil penalties. An employee in the Office of the General
                Counsel was assigned the responsibility to communicate information
                related to potential bonds or civil penalties to the Office of Finance.

            ~   Complied with the Federal Acquisition Regulations (FAR) on all blanket
                purchase agreements. The Office of Finance obligated funds in the official
                accounting records based on dollar amounts, and the Office of Facilities
                Management monitored all blanket purchase agreements.

            ~   Performed mid-year reviews of prior year outstanding funds to identify
                and alert the Office of Finance to funds that should be de-obligated.

The Commission also effectively implemented internal controls over disbursements and
payroll. We tested 40 disbursements related to purchase cards, travel, the Intra-
governmental Payment and Collection System, and vendor payments, and determined that
all disbursements were made in accordance with the Commission's Directives and
Handbooks. Employees obtained proper approval; purchases made were within
maximum thresholds and were allowable under the FAR; supporting documents were
obtained; and payments were made timely. Of the 40 employees selected for our payroll
test, we found that all personnel files contained all required completed forms. Also, the
employees' time and attendance information was properly authorized and maintained,
voluntary withholdings were properly administered, and all employees existed.

Additionally, we reviewed the Commission's program for employees who the
Commission allows to work for another agency for a specified period of time and
determined that the program operated as prescribed. Both the Commission and the
borrowing agency complied with the terms contained in the Memorandum of
Understanding between the two agencies.

While the above internal controls were effective, the Commission needs to take additional
actions to produce accurate and complete financial statements. As discussed in the
remaining sections of this report, the Commission needs to strengthen its oversight of
property, improve the accuracy of the financial records, and improve cash and accounts
receivable procedures.




                                                         Office ofInspector General
                                                               u.s. International Trade Commission
                                              5
Audit of the U.S. International Trade Commission's                                           OIG-AR-02-03
Financial Management System Controls




           B. Oversight of Property Should be Strengthened


The Commission's financial records may be misstated because property records were not
accurate. We found that Accountable Officers' did not notify the Office of Facilities
Management when an asset was disposed; lease agreements were not reviewed for
capitalization; and the costs of an asset under development were not tracked.

Disposal of Property

Fixed asset and accountable property lists were inaccurate. Using the lists, we were
unable to locate 2 of 9 fixed assets and 2 of the 40 randomly selected accountable
property items. The Commission had not performed an agency-wide annual physical
inventory of capital property, nor had the Accountable Officer prepared and submitted
Form 110 to the proper official. Failure to implement the required controls increases the
risk of misstated financial records and the undetected loss of assets.

Commission Directive 3550.3, Property Management, states that the Director, Office of
Facilities Management, is responsible for overall supervision and technical direction of
the property management system, including disposition of property and the resolution of
missing items. The Office of Facilities Management maintains a master property list of
fixed assets and all accountable property. Furthermore, the Accountable Officers must
conduct an annual physical inventory and report the results to the Office of Facilities
Management by January 15 of each year.

For fixed assets, SFFAS 6, Accountingfor Property, Plant and Equipment states that
each agency is allowed to determine the capitalization threshold. Effective October 1,
1999, the Commission elected to increase the fixed asset capitalization threshold from
$5,000 to $50,000.

As of January 24,2003, the Office of Facilities Management's list of fixed assets
consisted of nine items totaling $1,100,671. Using this list, we conducted a physical
inventory of all nine items and could not locate two which represented an initial cost of
$482,826. According to the list, the Office of Publishing was the Accountable Office for
both missing items. Through further review, we determined that both items were traded
in - one was traded in by another Office prior to the Office of Publishing absorbing some
of their duties and the remaining item was traded in by the Office of Publishing.




5   Accountable Officers are the Commissioners and office directors who have been assigned property.


                                                                  Office ofInspector General
                                                                         u.s. International Trade Commission
                                                      6
Audit of the U.S. International Trade Conunission's                                 OIG-AR-02-03
Financial Management System Controls

Presented below are the details of the missing items.

         Year                                         Accumulated    Net Book
Property Placed in                                    Depreciation   Value@ MonthNear
1.0.#    Service Description         Cost             @9/30/02       9/30/02  Disposed
1867     1996      Xerox 5790 Copier $ 60,755         $ 54,679       $ 6,076 Sep-99
1871     1997      Xerox Docutech    $422,071         $298,535       $123,536 Sep-98


The list of fixed assets was not updated because the Accountable Office at the time each
item was traded in did not prepare a Form 110 indicating the disposal of the traded in
items. Unclear guidance may have contributed to the Accountable Office's failure to
complete Form 110. Form 110 included "trade in property" as a reason to complete the
Form, but it was labeled "For Accountable Property Use Only" and the Form referenced
the Directive's predecessor 3550.2. The current Directive did not provide guidance on
trade in property.

Also, the current Directive was vague on the responsibility to conduct an annual physical
inventory of fixed assets. In practice, the Office of Facilities Management conducted this
inventory. However, their master property list had not been updated to eliminate fixed
assets below the Commission's revised threshold of $50,000, thus causing errors when
the inventory was taken.

Accountable property is govennnent-owned property that the Commission controls
because of its sensitivity and/or potential for theft. These items are:

    ~   Automated Data Processing (ADP) equipment (all computer equipment, including
        laptops, printers, and facsimile machines)
    ~   Televisions
    ~   Video Cassette Recorders
    ~   Video Cameras
    ~   35 mm Cameras
For accountable property, we randomly selected 40 items for physical verification from
the Office of Facilities Management's list of accountable property. We were unable to
locate 2 items. Both were assigned to the Office of Information Services (OIS). OIS
listed these items on their own OIS inventory listing dated December 19,2002, that they
provided to the Office of Facilities Management. However, in response to our
preliminary results, OIS officials investigated the items and determined that both were no
longer located at the Commission. Although accountable property items are expensed in
the period of acquisition, it is imperative that these items be reported within the proper




                                                           Omce ofInspector General
                                                                u.s. International Trade Commission
                                               7
Audit of the U.S. International Trade Commission's                                 OIG-AR-02-03
Financial Management System Controls

period to ensure accuracy of the accountable property list. Details of the property are
presented below.

                                                            MonthNear
                        Property 1.0. # Description         disposed
                        0266            Printer HP 451      May 2001
                        1557            Panasonic Fax       Unknown, but
                                                            prior to
                                                            Decem ber 2002

Capitalizing Leased Property

We reviewed the current agreements for all three assets being leased and determined that
one of the three leases should have been recorded as a capital lease. Management did not
review the lease agreements to determine whether capitalization of the property was
applicable. Failure to properly capitalize leased property will result in a misstatement
once the Commission produces financial statements.

In accordance with SFFAS Number 6, one of the following criteria must be met for the
lease to be classified as a capital lease:

    ~   The leasor transfers ownership of the property to the lessee by the end of the lease
        term.

    ~   The lease contains an option to purchase the leased property at a bargain price.

    ~   The lease term is equal to or greater than 75% of the estimated economic life of
        the lease property.

    ~   The present value of the rental and other minimum lease payments, excluding that
        portion ofthe payments representing executory cost, equals or exceeds 90% of the
        fair value of the leased property.

The 60 month lease for the Xerox Custom Publisher 6180 Docutech (serial number
8VE050675), which was placed in service on February 21,2001, should have been
capitalized. The title of the equipment will transfer to the Commission at the conclusion
of the specified lease period without any additional payment.

EDIS Costs

As of February 2003, approximately $2,450,000 was obligated for the development and
implementation of the new EDIS. While the Commission assigned an individual with the
responsibility to manage EDIS' development and implementation, no one employee was
responsible for monitoring the accumulated costs for EDIS and advising the Office of


                                                         Office ofInspector General
                                                               u.s. International Trade Commission
                                              8
Audit of the U.S. International Trade Commission's                                   OIG-AR-02-03
Financial Management System Controls

Finance of the costs to be capitalized. Failure to monitor expenditures for capitalization
increases the risk of financial records not being properly stated.

Currently, the Commission has spent approximately $2.2 million (90 percent) of the
funds obligated to this project. We did not assess the planning and management of this
major investment because our object was to evaluate financial data. A key goal of the
Clinger-Cohen Act6 (Public Law 104-106, February 10, 1996) is that agencies should
have processes and information in place to help ensure that projects are being
implemented at acceptable costs, within reasonable and expected time frames, and are
contributing to tangible, observable improvements in mission performance.

SFFAS Numbers 6 and 10 apply to capitalizing for automated system's hardware and
software. As previously discussed, the Commission determined a $50,000 threshold for
capitalizing under SFFAS 6. SFFAS Number 10, Accountingfor Internal Use Software
requires entities to capitalize the cost of software when such software is used in providing
goods and services. Furthermore, the capitalized cost should include the full cost (direct
and indirect) incurred during the software development stage.



Recommendation 1
The Director, Office of Administration should revise Form 110 and the Property
Management Directive to include guidance for both fixed assets and accountable property
and obtain appropriate approval for prompt issuance. The revised Directive should:
(a) require the Accountable Officer to promptly advise the Office of Facilities
Management of a change in status or location of all types of property through the use of
Form 110; (b) assign responsibility and develop procedures to conduct an accurate
physical inventory of fixed assets and accountable property; (c) assign responsibility to
review all lease agreements and determine whether any leases should be capitalized under
the provisions of SFFAS Number 6; and (d) assign responsibility to monitor capital
expenditures to identify the proper accounting treatment according to SFFAS Numbers 6
and 10. Procedures should be included to ensure the Office of Finance is promptly
alerted of all items affecting the financial records.


Management Response
The Director, Office of Administration concurred with the recommendation. The
Director of Administration directed the Directors of Finance and Facilities Management
to revise Directive 3550.3 and Form 110 to address the issues identified in this
recommendation. The new directive will be issued by October 30,2003.


6 The President signed the Information Technology Management Reform Act (ITMRA) into law; ITMRA
together with the Federal Acquisition Reform Act became known as the Clinger-Cohen Act.


                                                           Office ofInspector General
                                                                 u.s. International Trade Commission
                                                9
Audit of the U.S. International Trade Commission's                               OIG-AR-02-03
Financial Management System Controls




OIGComment
When accomplished, the above actions will satisfy this recommendation.


        c.   Controls over Payroll Reconciliation, Accounts Receivable and Cash
             Should be Improved

Payroll balances may be misstated because the Office of Finance adjusted the
Commission's payroll records to agree with the figures reported by DOl without
detennining the cause for the differences. Additionally, the Commission had not set up a
receivable account to properly record the employees' obligation and repayment of their
portion of parking subsidized by the Commission. Finally, the Office of Finance should
separate the various duties related to cash transactions. We found that one employee had
the responsibility to collect and process cash transactions.

Payroll Reconciliation

Personnel in the Office of Finance completed all required cash and payroll account
reconciliations, but payroll was not properly reconciled. An employee in the Office of
Finance posted entries to the Federal Financial System (FFS) to make the FFS payroll
figures agree with the DOl report, without investigating the differences. Although the net
adjustments were normally small, they may contain many different components. The
effect of not properly researching payroll variances increases the risk of misstated
financial records and loss of assets.

Accounts Receivable

For the subsidized parking program, the Office of Finance recorded in total the
Commission's portion and the employees' reimbursable portion as an expense on the
general ledger at the beginning of the fiscal year. The portion due from the employees
was not reflected on the general ledger. Employees reimburse the Commission for their
portions through hi-weekly payroll deductions, and the Office of Finance posted those
amounts against the expense account. DOl provides the Commission with a
Transportation Not Taxed report, which discloses the amount withheld from the
employees, but no one reviewed the report to ensure that all participating employees
repaid the Commission. Furthermore, by not recording the prepaid expense and relieving
the prepaid expense when employees reimburse the Commission, financial records are
not properly stated.

Commission Directive 2102.0 states that the Director of the Office of Finance is
responsible for performing reviews of the financial management system and advising the


                                                       O(fice ofInspector General
                                                             u.s. International Trade Commission
                                              10
Audit of the U.S. International Trade Commission's                                    OIG-AR-02-03
Financial Management System Controls

Director of Administration whether the Commission's financial management system is in
accordance with OMB Guidelines. OMB Circular A-127 states that transactions should
be promptly recorded, properly classified and accounted for in order to prepare timely
accounts and reliable financial and other reports.




The Office of Finance had one employee maintaining the cash receipts log, preparing the
cash deposits, delivering the deposit to the bank, and recording the deposit in the
accounting system, without any management oversight. We tested cash receipts for FY
2003, and determined that the employee properly made the deposits. While we recognize
that the Commission normally has a small" amount of cash receipts and limited staff in
the Office of Finance, a separation of this employee's duties is needed to minimize the
risk of loss of funds.

OMB Circular A-127 states that key duties and responsibilities for authorizing,
processing, recording, and reviewing official agency transactions should be separated
among individuals. Managers should exercise appropriate oversight to ensure individuals
do not exceed their assigned authorities.


Recommendation 2
The Director, Office of Administration, should direct the Director, Office of Finance, to
monitor all reconciliations to assure that all adjustments and variances are properly
supported.


Management Response
The Director, Office of Administration concurred with the recommendation and
completed the recommended action. On June 30, 2003, the Director of Administration
instructed the Director of Finance to monitor all payroll reconciliations to assure that
adjustments and variances are properly supported. The Director of Finance will ensure
this is accomplished at least once a month.


OIGComment
The above action satisfies this recommendation.




7   Median receipt was approximately $150 over four months.


                                                              Office ofInspector General
                                                                  u.s. International Trade Commission
                                                    11
Audit of the U.S. International Trade Commission's                               OIG-AR-02-03
Financial Management System Controls


Recommendation 3
The Director, Office of Administration, should direct the Director, Office of Finance, to
set-up a receivable account in the beginning of the year for the employees' share of the
subsidized parking; reduce the receivable at time of the reimbursements; and monitor the
program to verify that employees reimburse the Commission.


Management Response
The Director, Office of Administration concurred with the recommendation and
completed the recommended actions. On June 30,2003, the Director of Administration
instructed the Director of Finance to set-up a receivable account at the beginning ofFY
2004 for the employee's share of the subsidized parking, reduce the receivable at the time
of reimbursement, and monitor the program to verify that employees reimburse the
Commission.


OIGComment
The above actions satisfy this recommendation.


Recommendation 4
The Director, Office of Administration, should assign: (a) some of the cash receipts tasks
to other employees and (b) an employee to monitor this function.


Management Response
The Director, Office of Administration concurred with the recommendation and
completed the recommended actions. In June 2003, the Director of Administration
through the Director of Finance, separated the cash receipt tasks among several
employees in the Office of Finance and assigned the operating accountant the
responsibility of monitoring deposit receipts.


OIGComment
The above actions satisfy this recommendation.




                                                       Office ofInspector General
                                                             u.s. International Trade Commission
                                             12
Audit of the U.S. International Trade Commission's                               OIG-AR-02-03
Financial Management System Controls



        D. Policies and Procedures Could be Revised to Facilitate Timely Financial
           Information and Reporting

The Commission may not be in a position to submit accurate financial statements within
the required due dates because of its current policies and procedures. These policies and
procedures should be revised to ensure balances are timely updated. With the enactment
of the Accountability ofTax Dollars Act of2002, OMB may require the Commission to
file unaudited financial statements quarterly as early as the first quarter of FY 2004.
Also, agencies' due date for submitting their audited financial statements has been on an
accelerated pace. The FYs 2003 and 2004 audited financial statement due dates to OMB
are February 1, 2004 and November 15, 2004, respectively.

Examples of current policies and procedures that came to our attention which the
Commission should consider revising to ensure financial records are accurate and timely
included the:

    ~   Depreciation expense, approximately $160,000 for FY 2002, was recorded once
        rather than on a monthly basis.

    ~   Annual physical inventory process ran from December to February 15, as
        prescribed in Directive 3550.3, which is past OMB's due dates for financial
        statements.


Suggestion
The Director, Office of Administration, should take the appropriate action to revise
current policies and procedures to ensure financial information is timely updated to meet
the financial statement reporting requirements.




                                                       O(fice ofInspector General
                                                             u.s. International Trade Commission
                                              13
                                                                         APPENDIX A




      UNITED STATES INTERNATIONAL TRADE COMMISSION
                                  WASmNGTON, DC 20436

July 1,2003                                                          AD-AA-072

MEMORANDUM

TO:           Inspector General

FROM:         Stephen A. Mcl.aughlin, Director
              Office of Administration

SUBJECT:      Response to OIG Draft Audit Report: The U.S. International Trade
              Commission's Financial Management System Controls

The Office of Inspector General issued the subject draft audit on May 13,2003. Action on
three recommendations has been completed, and we agree on the one remaining recommended
action.

Recommendations

1. The Office of Administration Director should revise Form 110 and the Property
Management Directive to include guidance for both fixed assets and accountable
property and obtain appropriate approval for prompt issuance. The revised Directive
should:

(a) require the Accountable Officer to promptly advise the Office of Facilities
Management of a change in status or location of all types of property through the use of
Form 110;

(b) assign responsibility and develop procedures to conduct an accurate physical
inventory of fixed assets and accountable property;

(c) assign responsibility to review all lease agreements and determine whether any leases
should be capitalize under the provision of SFFAS number 6; and

(d) assign responsibility to monitor capital expenditures to identify the proper
accounting treatment according to SFFA Number 6 and 10. Procedures should be
included to ensure the Office of Finance is promptly alerted to all items affecting the
financial records.



                                           14
                                             -2-

The Director of Administration has directed the Directors of Finance and Facilities
Management to revise Directive 3550.3 and Form 110 to address the issues identified in the
recommendation. The new directive will be issued by October 30, 2003.

Status: Action to be completed by October 30, 2003.

2. The Director, Office of Administration, should direct the Director, Office of Finance,
to monitor aU reconciliations to assure that aU adjustments and variances are properly
supported.

On June 30, 2003, the Director of Administration instructed the Director of Finance to
monitor all payroll reconciliations to assure that adjustments and variances are properly
supported. The Director of Finance will ensure this is accomplished at least once a month.

Status: Closed.

3. The Director, Office of Administration, should direct the Director, Office of Finance,
to set-up a receivable account in the beginning of the year for the employees share of the
subsidized parking; reduce the receivable at the time of the reimbursement; and
monitor the program to verify that employees reimburse the Commission.

On June 30, 2003, the Director of Administration directed the Director of Finance to set-up a
receivable account at the beginning of Fiscal Year 2004 for the employees share of the
subsidized parking, reduce the receivable at the time of reimbursement, and monitor the
program to verify that employees reimburse the Commission. The Director of Finance will
use this account to monitor employee payments.

Status: Closed

4. The Director, Office of Administration, should assign; (a) some of the cash receipts
tasks to other employees and (b) an employee to monitor this function.

In June 2003, the Director of Administration, through the Director of Finance, separated the
cash receipt tasks among several employees in the Office of Finance and has assigned the
operating accountant the responsibility of monitoring deposit receipts.

Status: Closed

cc:    Office of Finance
       Office of Facilities Management




                                            15
